                Department of Veterans Affairs
                Office of Inspector General


                  Office of Healthcare Inspections

Report No. 13-03623-89




  Combined Assessment Program 

           Review of the 

Oscar G. Johnson VA Medical Center 

      Iron Mountain, Michigan 





March 5, 2014

                         Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                            CAP Review of the Oscar G. Johnson VA Medical Center, Iron Mountain, MI



                                              Glossary
                 CAP            Combined Assessment Program
                 CLC            community living center
                 COC            coordination of care
                 EHR            electronic health record
                 EOC            environment of care
                 facility       Oscar G. Johnson VA Medical Center
                 FY             fiscal year
                 ICU            intensive care unit
                 MEC            Medical Executive Committee
                 MH             mental health
                 MRC            Medical Records Committee
                 NA             not applicable
                 NM             not met
                 OIG            Office of Inspector General
                 PRC            Peer Review Committee
                 PT             physical therapy
                 QM             quality management
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network
                 VTS            Veterans Transportation Service




VA OIG Office of Healthcare Inspections
                                     CAP Review of the Oscar G. Johnson VA Medical Center, Iron Mountain, MI



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives and Scope ................................................................................................              1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1


Reported Accomplishments......................................................................................                     2


Results and Recommendations ................................................................................                       4

  QM ..........................................................................................................................    4

  EOC ........................................................................................................................     7

  Medication Management.........................................................................................                   9

  COC........................................................................................................................     10

  Nurse Staffing .........................................................................................................        11

  Pressure Ulcer Prevention and Management .........................................................                              12

  CLC Resident Independence and Dignity ...............................................................                           14


Appendixes
  A. Facility Profile ....................................................................................................        16

  B. Strategic Analytics for Improvement and Learning ............................................                                17

  C. VISN Director Comments ..................................................................................                    20

  D. Facility Director Comments ...............................................................................                   21

  E. OIG Contact and Staff Acknowledgments .........................................................                              25

  F. Report Distribution .............................................................................................            26

  G. Endnotes ...........................................................................................................         27





VA OIG Office of Healthcare Inspections
                            CAP Review of the Oscar G. Johnson VA Medical Center, Iron Mountain, MI



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
November 4, 2013.

Review Results: The review covered seven activities.                            We     made     no
recommendations in the following three activities:

 Environment of Care

 Medication Management

 Coordination of Care

The facility’s reported accomplishments were the opening of a physical therapy satellite
clinic in the community living center and the Veterans Transportation Service, which
significantly increased the number of trips it provided to outpatients traveling to and from
scheduled medical appointments at the facility during fiscal year 2013.

Recommendations: We made recommendations in the following four activities:
Quality Management: Ensure the Intensive Care Unit Committee reviews each code
episode. Require the Medical Records Committee to analyze all reports of electronic
health record review results. Ensure that a member from Surgery Service attends
Ancillary Testing Committee meetings, that a clinical representative from Anesthesia
Service is added as an Ancillary Testing Committee member, and that the
blood/transfusions usage review process includes the results of peer reviews when
transfusions did not meet criteria.

Nurse Staffing: Monitor the staffing methodology that was implemented in June 2013.

Pressure Ulcer Prevention and Management: Provide and document pressure ulcer
education for patients with pressure ulcers and/or their caregivers. Establish staff
pressure ulcer education requirements.

Community Living Center Resident Independence and Dignity: Provide timely
restorative nursing services to residents who are candidates for those services.
Document resident progress towards restorative nursing goals, modify interventions as
needed, and document the modifications.




VA OIG Office of Healthcare Inspections                                                           i
                            CAP Review of the Oscar G. Johnson VA Medical Center, Iron Mountain, MI


Comments
The Veterans Integrated Service Network and Facility Directors agreed with the
Combined Assessment Program review findings and recommendations and provided
acceptable improvement plans. (See Appendixes C and D, pages 20–24, for the full
text of the Directors’ comments.) We will follow up on the planned actions until they are
completed.




                                                          JOHN D. DAIGH, JR., M.D. 

                                                         Assistant Inspector General for 

                                                            Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                           ii
                            CAP Review of the Oscar G. Johnson VA Medical Center, Iron Mountain, MI



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	 Conduct recurring evaluations of selected health care facility operations, focusing
      on patient care quality and the EOC.

   	 Provide crime awareness briefings to increase employee understanding of the
      potential for program fraud and the requirement to refer suspected criminal
      activity to the OIG.

Scope
The scope of the CAP review is limited. Serious issues that come to our attention that
are outside the scope will be considered for further review separate from the CAP
process and may be referred accordingly.

For this review, we examined selected clinical and administrative activities to determine
whether facility performance met requirements related to patient care quality and the
EOC. In performing the review, we inspected selected areas, conversed with managers
and employees, and reviewed clinical and administrative records. The review covered
the following seven activities:

   	 QM

   	 EOC

   	 Medication Management

   	 COC

   	 Nurse Staffing

   	 Pressure Ulcer Prevention and Management

   	 CLC Resident Independence and Dignity

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2012, FY 2013, and FY 2014 through
November 7, 2013, and was done in accordance with OIG standard operating
procedures for CAP reviews. We also asked the facility to provide the status on the


VA OIG Office of Healthcare Inspections                                                          1
                            CAP Review of the Oscar G. Johnson VA Medical Center, Iron Mountain, MI


recommendations we made in our previous CAP report (Combined Assessment
Program Review of the Oscar G. Johnson VA Medical Center, Iron Mountain, Michigan,
Report No. 08-02603-05, October 7, 2009).

During this review, we presented crime awareness briefings for 218 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and
included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
139 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                         Reported Accomplishments

CLC PT Satellite Clinic
On July 22, 2013, the facility opened a PT satellite clinic in the CLC, the facility’s
long-term care and short-term rehabilitation unit. The primary goal of this clinic is to
provide the highest quality physical medicine and rehabilitation care in as close to a
home-like environment as possible. As of September 9, 2013, there had been
350 resident visits.

The PT satellite clinic offers CLC residents a variety of rehabilitation opportunities using
the newest, state-of-the-art rehabilitation equipment, which includes the latest models of
recumbent steppers; upper and lower extremity conditioning bikes; and full-power,
adjustable parallel bars. Additional benefits of this clinic include the provision of timely
and convenient PT and increased interdisciplinary care since the physical therapist is
readily available to collaborate and share expertise with nursing and recreation therapy
staff, social workers, physicians, and other providers.

VTS
The VTS provides timely and efficient transportation to outpatients traveling to and from
scheduled medical appointments at the facility. Many of the outpatients who use this
service reside in rural areas. The VTS has 2 16-passenger vehicles that are capable of
transporting patients in wheelchairs and with oxygen. Two drivers and 2 escorts
operate the vehicles weekdays from 5:00 a.m. to 8:00 p.m. Transportation is provided
within a 50-mile radius of the facility and includes local runs for outpatients following
appointments. The VTS has established routes and does not charge a fee. The table
on the next page shows a comparison of the FY 2012 and FY 2013 metrics.




VA OIG Office of Healthcare Inspections                                                          2
                            CAP Review of the Oscar G. Johnson VA Medical Center, Iron Mountain, MI


                Comparison of FY 2012 and FY 2013 Metrics for the VTS
                          FY 2012*               FY 2013             Growth Rate in
                                                                        Percent
VTS Trips           1,398                  2,439                  74.5
Service Mileage     40,105                 83,565                 108.4

Beneficiary Travel   $6,648.66                      $12,316.81                85.3
Avoidance
Special Mode Savings $34,710.00                     $49,285.00                42.0
Total Cost Savings   $41,358.66                     $61,601.81                48.9
* Metrics are for 10 months of FY 2012; the VTS became fully operational on November 22, 2011.




VA OIG Office of Healthcare Inspections                                                          3
                                      CAP Review of the Oscar G. Johnson VA Medical Center, Iron Mountain, MI



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility met selected requirements
within its QM program.1

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The areas marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM                     Areas Reviewed                                         Findings
       There was a senior-level committee/group
       responsible for QM/performance improvement
       that met regularly.
        There was evidence that outlier data was
          acted upon.
        There was evidence that QM, patient
          safety, and systems redesign were
          integrated.
       The protected peer review process met
       selected requirements:
        The PRC was chaired by the Chief of Staff
          and included membership by applicable
          service chiefs.
        Actions from individual peer reviews were
          completed and reported to the PRC.
        The PRC submitted quarterly summary
          reports to the MEC.
        Unusual findings or patterns were
          discussed at the MEC.
       Focused Professional Practice Evaluations for
       newly hired licensed independent practitioners
       were initiated and completed, and results
       were reported to the MEC.
       Specific telemedicine services met selected
       requirements:
        Services were properly approved.
        Services were provided and/or received by
          appropriately privileged staff.
        Professional practice evaluation information
          was available for review.




VA OIG Office of Healthcare Inspections                                                                    4
                                      CAP Review of the Oscar G. Johnson VA Medical Center, Iron Mountain, MI


NM               Areas Reviewed (continued)                                    Findings
       Observation bed use met selected
       requirements:
        Local policy included necessary elements.
        Data regarding appropriateness of
          observation bed usage was gathered.
        If conversions to acute admissions were
          consistently 30 percent or more,
          observation criteria and utilization were
          reassessed timely.
       Staff performed continuing stay reviews on at
       least 75 percent of patients in acute beds.
 X     The process to review resuscitation events         Nine months of ICU Committee meeting minutes
       met selected requirements:                         reviewed:
        An interdisciplinary committee was                There was no evidence that the committee
          responsible for reviewing episodes of care         reviewed each code episode.
          where resuscitation was attempted:
        Resuscitation event reviews included
          screening for clinical issues prior to events
          that may have contributed to the
          occurrence of the code.
        Data were collected that measured
          performance in responding to events.
       The surgical review process met selected
       requirements:
        An interdisciplinary committee with
          appropriate leadership and clinical
          membership met monthly to review surgical
          processes and outcomes.
        All surgical deaths were reviewed.
        Additional data elements were routinely
          reviewed.
       Critical incidents reporting processes were
       appropriate.
 X     The process to review the quality of entries in    Twelve months of MRC meeting minutes
       the EHR met selected requirements:                 reviewed:
        A committee was responsible to review             The committee did not analyze all reports of
          EHR quality.                                       EHR quality review results.
        Data were collected and analyzed at least
          quarterly.
        Reviews included data from most services
          and program areas.
       The policy for scanning non-VA care
       documents met selected requirements.




VA OIG Office of Healthcare Inspections                                                                    5
                                      CAP Review of the Oscar G. Johnson VA Medical Center, Iron Mountain, MI


NM             Areas Reviewed (continued)                                      Findings
 X     The process to review blood/transfusions           Four quarters of Ancillary Testing Committee
       usage met selected requirements:                   meeting minutes reviewed:
        A committee with appropriate clinical             A clinical representative from Surgery Service
         membership met at least quarterly to review        did not attend any of the four meetings.
         blood/transfusions usage.                         The committee’s membership did not include
        Additional data elements were routinely            a clinical representative from Anesthesia
         reviewed.                                          Service.
                                                           The review process did not include the results
                                                            of peer reviews when transfusions did not
                                                            meet criteria.
       Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       Overall, senior managers were involved in
       performance improvement over the past
       12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
       The facility met any additional elements
       required by VHA or local policy.

Recommendations

1. We recommended that processes be strengthened to ensure that the ICU Committee
reviews each code episode.

2.   We recommended that the MRC analyze all reports of EHR quality review results.

3. We recommended that processes be strengthened to ensure that a member from Surgery
Service attends Ancillary Testing Committee meetings, that a clinical representative from
Anesthesia Service is added as an Ancillary Testing Committee member, and that the
blood/transfusions usage review process includes the results of peer reviews when transfusions
did not meet criteria.




VA OIG Office of Healthcare Inspections                                                                    6
                                      CAP Review of the Oscar G. Johnson VA Medical Center, Iron Mountain, MI


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether selected
requirements in radiology and acute MH were met.2

We inspected the medical/surgical and CLC units, the ICU, the emergency and radiology
departments, and the Spirit and Freedom primary care clinics. Additionally, we reviewed
relevant documents, conversed with key employees and managers, and reviewed 10 radiology
employee training records. The table below shows the areas reviewed for this topic. Any items
that did not apply to this facility are marked NA. The facility generally met requirements. We
made no recommendations.

NM            Areas Reviewed for General EOC                                  Findings
       EOC Committee minutes reflected sufficient
       detail regarding identified deficiencies,
       corrective actions taken, and tracking of
       corrective actions to closure.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       Fire safety requirements were met.
       Environmental safety requirements were met.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Auditory privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
                Areas Reviewed for Radiology
       The facility had a Radiation Safety Committee,
       the committee met at least every 6 months
       and established a quorum for meetings, and
       the Radiation Safety Officer attended
       meetings.
       Radiation Safety Committee meeting minutes
       reflected discussion of any problematic areas,
       corrective actions taken, and tracking of
       corrective actions to closure.
       Facility policy addressed frequencies of
       equipment inspection, testing, and
       maintenance.




VA OIG Office of Healthcare Inspections                                                                    7
                                      CAP Review of the Oscar G. Johnson VA Medical Center, Iron Mountain, MI


NM      Areas Reviewed for Radiology (continued)                              Findings
       The facility had policy for the safe use of
       fluoroscopic equipment.
       The facility Director appointed a Radiation
       Safety Officer to direct the radiation safety
       program.
       X-ray and fluoroscopy equipment items were
       tested by a qualified medical physicist before
       placed in service and annually thereafter, and
       quality control was conducted on fluoroscopy
       equipment in accordance with facility
       policy/procedure.
       Designated employees received initial
       radiation safety training and training thereafter
       with the frequency required by local policy,
       and radiation exposure monitoring was
       completed for employees within the past year.
       Environmental safety requirements in x-ray
       and fluoroscopy were met.
       Infection prevention requirements in x-ray and
       fluoroscopy were met.
       Medication safety and security requirements
       in x-ray and fluoroscopy were met.
       Sensitive patient information in x-ray and
       fluoroscopy was protected.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for Acute MH
 NA    MH EOC inspections were conducted every
       6 months.
 NA    Corrective actions were taken for
       environmental hazards identified during
       inspections, and actions were tracked to
       closure.
 NA    MH unit staff, Multidisciplinary Safety
       Inspection Team members, and occasional
       unit workers received training on how to
       identify and correct environmental hazards,
       content and proper use of the MH EOC
       Checklist, and VA’s National Center for
       Patient Safety study of suicide on psychiatric
       units.
 NA    Locked MH unit(s) were in compliance with
       MH EOC Checklist safety requirements or an
       abatement plan was in place.
 NA    The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.


VA OIG Office of Healthcare Inspections                                                                    8
                                      CAP Review of the Oscar G. Johnson VA Medical Center, Iron Mountain, MI


Medication Management
The purpose of this review was to determine whether the appropriate clinical oversight and
education were provided to patients discharged with orders for fluoroquinolone oral antibiotics.3

We reviewed relevant documents and conversed with key managers and employees.
Additionally, we reviewed the EHRs of 35 randomly selected inpatients discharged on 1 of
3 selected oral antibiotics. The table below shows the areas reviewed for this topic. Any items
that did not apply to this facility are marked NA. The facility generally met requirements. We
made no recommendations.

NM                      Areas Reviewed                                        Findings
       Clinicians conducted inpatient learning
       assessments within 24 hours of admission or
       earlier if required by local policy.
       If learning barriers were identified as part of
       the learning assessment, medication
       counseling was adjusted to accommodate the
       barrier(s).
       Patient renal function was considered in
       fluoroquinolone dosage and frequency.
       Providers completed discharge progress
       notes or discharge instructions, written
       instructions were provided to
       patients/caregivers, and EHR documentation
       reflected that the instructions were
       understood.
       Patients/caregivers were provided a written
       medication list at discharge, and the
       information was consistent with the dosage
       and frequency ordered.
       Patients/caregivers were offered medication
       counseling, and this was documented in
       patient EHRs.
       The facility established a process for
       patients/caregivers regarding whom to notify
       in the event of an adverse medication event.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                    9
                                      CAP Review of the Oscar G. Johnson VA Medical Center, Iron Mountain, MI


COC
The purpose of this review was to evaluate discharge planning for patients with selected
aftercare needs.4

We reviewed relevant documents and conversed with key employees. Additionally, we
reviewed the EHRs of 27 patients with specific diagnoses who were discharged from
July 1, 2012, through June 30, 2013. The table below shows the areas reviewed for this topic.
Any items that did not apply to this facility are marked NA. The facility generally met
requirements. We made no recommendations.

NM                      Areas Reviewed                                        Findings
       Patients’ post-discharge needs were
       identified, and discharge planning addressed
       the identified needs.
       Clinicians provided discharge instructions to
       patients and/or caregivers and validated their
       understanding.
       Patients received the ordered aftercare
       services and/or items within the
       ordered/expected timeframe.
       Patients’ and/or caregivers’ knowledge and
       learning abilities were assessed during the
       inpatient stay.
NA     The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                   10
                                      CAP Review of the Oscar G. Johnson VA Medical Center, Iron Mountain, MI


Nurse Staffing
The purpose of this review was to determine whether the facility implemented the staffing
methodology for nursing personnel and completed annual reassessments and to evaluate nurse
staffing on two inpatient units (acute medical/surgical and long-term care).5

We reviewed facility and unit-based expert panel documents and 16 training files, and we
conversed with key employees. Additionally, we reviewed the actual nursing hours per patient
day for 2 randomly selected units—acute medical/surgical unit 4E and a CLC unit—for
50 randomly selected days between October 1, 2012, and September 30, 2013. The table
below shows the areas reviewed for this topic. The area marked as NM did not meet applicable
requirements and needed improvement. Any items that did not apply to this facility are marked
NA.

NM                      Areas Reviewed                                       Findings
 X     The facility either implemented or reassessed       Initial implementation was not completed until
       a nurse staffing methodology within the              June 20, 2013.
       expected timeframes.
       The facility expert panel followed the required
       processes and included the required
       members.
       The unit-based expert panels followed the
       required processes and included the required
       members.
       Members of the expert panels completed the
       required training.
       The actual nursing hours per patient day met
       or exceeded the target nursing hours per
       patient day.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

4. We recommended that nursing managers monitor the staffing methodology that was
implemented in June 2013.




VA OIG Office of Healthcare Inspections                                                                   11
                                      CAP Review of the Oscar G. Johnson VA Medical Center, Iron Mountain, MI


Pressure Ulcer Prevention and Management
The purpose of this review was to determine whether acute care clinicians provided
comprehensive pressure ulcer prevention and management.6

We reviewed relevant documents, 13 EHRs of patients with pressure ulcers (2 patients with
hospital-acquired pressure ulcers, 10 patients with community-acquired pressure ulcers, and
1 patient with a pressure ulcer at the time of our onsite visit), and 10 employee training records.
Additionally, we inspected one patient room. The table below shows the areas reviewed for this
topic.   The areas marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM                      Areas Reviewed                                        Findings
       The facility had a pressure ulcer prevention
       policy, and it addressed prevention for all
       inpatient areas and for outpatient care.
       The facility had an interprofessional pressure
       ulcer committee, and the membership
       included a certified wound care specialist.
       Pressure ulcer data was analyzed and
       reported to facility executive leadership.
       Complete skin assessments were performed
       within 24 hours of acute care admissions.
       Skin inspections and risk scales were
       performed upon transfer, change in condition,
       and discharge.
       Staff were generally consistent in
       documenting location, stage, risk scale score,
       and date acquired.
       Required activities were performed for
       patients determined to be at risk for pressure
       ulcers and for patients with pressure ulcers.
       Required activities were performed for
       patients determined to not be at risk for
       pressure ulcers.
       For patients at risk for and with pressure
       ulcers, interprofessional treatment plans were
       developed, interventions were recommended,
       and EHR documentation reflected that
       interventions were provided.
       If the patient’s pressure ulcer was not healed
       at discharge, a wound care follow-up plan was
       documented, and the patient was provided
       appropriate dressing supplies.




VA OIG Office of Healthcare Inspections                                                                   12
                                      CAP Review of the Oscar G. Johnson VA Medical Center, Iron Mountain, MI


NM             Areas Reviewed (continued)                                      Findings
 X     The facility defined requirements for patient       For 3 of the applicable 12 patients with a
       and caregiver pressure ulcer education, and          pressure ulcer, EHRs did not contain
       education on pressure ulcer prevention and           evidence that education was provided.
       development was provided to those at risk for
       and with pressure ulcers and/or their
       caregivers.
 X     The facility defined requirements for staff         The facility had not developed staff pressure
       pressure ulcer education, and acute care staff       ulcer education requirements.
       received training on how to administer the
       pressure ulcer risk scale, conduct the
       complete skin assessment, and accurately
       document findings.
       The facility complied with selected fire and
       environmental safety, infection prevention,
       and medication safety and security
       requirements in pressure ulcer patient rooms.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

5. We recommended that processes be strengthened to ensure that acute care staff provide
and document pressure ulcer education for patients with pressure ulcers and/or their caregivers
and that compliance be monitored.

6. We recommended that the facility establish staff pressure ulcer education requirements and
that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                     13
                                      CAP Review of the Oscar G. Johnson VA Medical Center, Iron Mountain, MI


CLC Resident Independence and Dignity
The purpose of this review was to determine whether VHA facilities provided CLC restorative
nursing services and complied with selected nutritional management and dining service
requirements to assist CLC residents in maintaining their optimal level of functioning,
independence, and dignity.7

We reviewed 15 EHRs of residents (10 residents receiving restorative nursing services and
5 residents not receiving restorative nursing services but candidates for services). We also
observed 3 residents during 2 meal periods, reviewed 10 employee training/competency records
and other relevant documents, and conversed with key employees. The table below shows the
areas reviewed for this topic. The areas marked as NM did not meet applicable requirements
and needed improvement. Any items that did not apply to this facility are marked NA.

NM                      Areas Reviewed                                        Findings
       The facility offered restorative nursing
       services.
 X     Facility staff completed and documented            Of the 5 residents on the unit for more than
       restorative nursing services, including active     3 months who were candidates for restorative
       and passive range of motion, bed mobility,         nursing services:
       transfer, and walking activities, according to      Two had not received restorative nursing
       clinician orders and residents’ care plans.           services.
                                                           Two did not receive restorative nursing
                                                             services until October 30, 2013, and
                                                             November 5, 2013, respectively.
 X     Resident progress towards restorative nursing       In 8 of the 10 applicable EHRs, there was no
       goals was documented, and interventions               evidence that facility staff documented
       were modified as needed to promote the                resident progress towards restorative nursing
       resident’s accomplishment of goals.                   goals or that interventions were modified to
                                                             promote the residents’ accomplishment of
                                                             goals.
       When restorative nursing services were care
       planned but were not provided or were
       discontinued, reasons were documented in
       the EHR.
       If residents were discharged from PT,
       occupational therapy, or kinesiotherapy, there
       was hand-off communication between
       Physical Medicine and Rehabilitation Service
       and the CLC to ensure that restorative nursing
       services occurred.
       Training and competency assessment were
       completed for staff who performed restorative
       nursing services.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                   14
                                      CAP Review of the Oscar G. Johnson VA Medical Center, Iron Mountain, MI


NM         Areas Reviewed for Assistive Eating                                 Findings
                Devices and Dining Service
       Care planned/ordered assistive eating devices
       were provided to residents at meal times.
       Required activities were performed during
       resident meal periods.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

7. We recommended that processes be strengthened to ensure that staff provide timely
restorative nursing services to residents who are candidates for those services and that
compliance be monitored.

8. We recommended that processes be strengthened to ensure that staff document resident
progress towards restorative nursing goals, modify interventions as needed, and document the
modifications and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                   15
                                  CAP Review of the Oscar G. Johnson VA Medical Center, Iron Mountain, MI
                                                                                             Appendix A


           Facility Profile (Iron Mountain/585) FY 2014 through
                               December 2013a
Type of Organization                                                                Secondary
Complexity Level                                                                    3-Low complexity
Affiliated/Non-Affiliated                                                           Non-Affiliated
Total Medical Care Budget in Millions (as of
September 2013)                                                                     $116.7
Number of:
    Unique Patients                                                                11,013
    Outpatient Visits                                                              39,745
    Unique Employeesb                                                              521
Type and Number of Operating Beds (as of
October 2013):
    Hospital                                                                       17
    CLC                                                                            40
    MH                                                                             N/A
Average Daily Census (as of November 2013):
    Hospital                                                                       14
    CLC                                                                            38
    MH                                                                             N/A
Number of Community Based Outpatient Clinics                                        6
Location(s)/Station Number(s)                                                       Hancock/585GA
                                                                                    Rhinelander/585GB
                                                                                    Menominee/585GC
                                                                                    Ironwood/585GD
                                                                                    Marquette/585HA
                                                                                    Sault Ste. Marie/585HB
VISN Number                                                                         12




a
    All data is for FY 2014 through December 2013 except where noted. 

b
    Unique employees involved in direct medical care (cost center 8200) from most recent pay period. 



VA OIG Office of Healthcare Inspections                                                                  16
                                                              CAP Review of the Oscar G. Johnson VA Medical Center, Iron Mountain, MI
                                                                                                                         Appendix B

                                    Strategic Analytics for Improvement and Learning (SAIL)c




c
    Metric definitions follow the graphs.


VA OIG Office of Healthcare Inspections                                                                                           17
                                                    CAP Review of the Oscar G. Johnson VA Medical Center, Iron Mountain, MI



                                          Scatter Chart 





VA OIG Office of Healthcare Inspections                                                                                 18
                                                                                            CAP Review of the Oscar G. Johnson VA Medical Center, Iron Mountain, MI


                                                                         Metric Definitions
 Measure                       Definition                                                                          Desired direction
 ACSC Hospitalization          Ambulatory care sensitive condition hospitalizations (observed to expected ratio)   A lower value is better than a higher value
 Adjusted LOS                  Acute care risk adjusted length of stay                                             A lower value is better than a higher value
 Call Center Responsiveness    Average speed of call center responded to calls in seconds                          A lower value is better than a higher value
 Call Responsiveness           Call center speed in picking up calls and telephone abandonment rate                A lower value is better than a higher value
 Complications                 Acute care risk adjusted complication ratio                                         A lower value is better than a higher value
 Efficiency                    Overall efficiency measured as 1 divided by SFA (Stochastic Frontier Analysis)      A higher value is better than a lower value
 Employee Satisfaction         Overall satisfaction with job                                                       A higher value is better than a lower value
 HC Assoc Infections           Health care associated infections                                                   A lower value is better than a higher value
 HEDIS                         Outpatient performance measure (HEDIS)                                              A higher value is better than a lower value
 MH Status                     MH status (outpatient only, the Veterans RAND 12 Item Health Survey)                A higher value is better than a lower value
 MH Wait Time                  MH wait time for new and established patients (top 50 clinics)                      A higher value is better than a lower value
 Oryx                          Inpatient performance measure (ORYX)                                                A higher value is better than a lower value
 Physical Health Status        Physical health status (outpatient only, the Veterans RAND 12 item Health Survey)   A higher value is better than a lower value
 Primary Care Wait Time        Primary care wait time for new and established patients (top 50 clinics)            A higher value is better than a lower value
 PSI                           Patient safety indicator                                                            A lower value is better than a higher value
 Pt Satisfaction               Overall rating of hospital stay (inpatient only)                                    A higher value is better than a lower value
 RN Turnover                   Registered nurse turnover rate                                                      A lower value is better than a higher value
 RSMR-AMI                      30-day risk standardized mortality rate for acute myocardial infarction             A lower value is better than a higher value
 RSMR-CHF                      30-day risk standardized mortality rate for congestive heart failure                A lower value is better than a higher value
 RSMR-Pneumonia                30-day risk standardized mortality rate for pneumonia                               A lower value is better than a higher value
 RSRR-AMI                      30-day risk standardized readmission rate for acute myocardial infarction           A lower value is better than a higher value
 RSRR-CHF                      30-day risk standardized readmission rate for congestive heart failure              A lower value is better than a higher value
 RSRR-Pneumonia                30-day risk standardized readmission rate for pneumonia                             A lower value is better than a higher value
 SMR                           Acute care in-hospital standardized mortality ratio                                 A lower value is better than a higher value
 SMR30                         Acute care 30-day standardized mortality ratio                                      A lower value is better than a higher value
 Specialty Care Wait Time      Specialty care wait time for new and established patients (top 50 clinics)          A higher value is better than a lower value




VA OIG Office of Healthcare Inspections                                                                                                                          19
                            CAP Review of the Oscar G. Johnson VA Medical Center, Iron Mountain, MI
                                                                                       Appendix C
                              VISN Director Comments



               Department of
               Veterans Affairs                                   Memorandum


           Date:       January 2, 2014

          From:        Director, VA Great Lakes Health Care System (10N12)

       Subject:        CAP Review of the Oscar G. Johnson VA Medical
                       Center, Iron Mountain, MI

             To:       Director, Chicago Office of Healthcare Inspections (54CH)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       1. I have reviewed the draft report and I concur with the Office of
          Healthcare Inspections recommendations as well as the corrective
          action plans developed by the Oscar G. Johnson VA Medical Center.

       2. Thank you for the opportunity to review the findings enclosed in this
          report.




       (For and in the absence of:)
       Jeffrey A. Murawsky, M.D.




VA OIG Office of Healthcare Inspections                                                         20
                            CAP Review of the Oscar G. Johnson VA Medical Center, Iron Mountain, MI
                                                                                       Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                   Memorandum


           Date:       December 27, 2013

          From:        Director, Oscar G. Johnson VA Medical Center (585/00)

       Subject:        CAP Review of the Oscar G. Johnson VA Medical
                       Center, Iron Mountain, MI

             To:       Director, VA Great Lakes Health Care System (10N12)

       1. The recommendations made during the Office of Inspector General
          (OIG) Combined Assessment Program (CAP) Review Conducted
          November 4–7, 2013 have been reviewed and a plan of action for each
          recommendation is noted below.      Each plan of action will be
          implemented expeditiously and thoroughly monitored to satisfactory
          completion.

       2. I 	would like to thank the OIG CAP Survey Team for their
          professionalism and consultative feedback to our employees during
          our review. This review provided us the opportunity to continue
          improving care to our Veterans.

       3. If you have questions or require additional information, please
          contact Ms. Mary Gagala, Quality Manager, at 906-774-3000,
          extension 32035.




       James W. Rice




VA OIG Office of Healthcare Inspections                                                         21
                            CAP Review of the Oscar G. Johnson VA Medical Center, Iron Mountain, MI


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that processes be strengthened to ensure that
the ICU Committee reviews each code episode.

Concur

Target date for completion: June 1, 2014

Facility response: An interdisciplinary group comprised of an RN, physician, and a
Respiratory Therapist have been assigned to review each code and discuss the
information with the Intensive Care Unit (ICU) Management Committee. Individual
codes and aggregate data will be included in this review. This topic has been added as
a standing agenda item to the agenda of ICU Management Committee and will then be
reported to CEB through ICU Management Committee minutes.

Recommendation 2.           We recommended that the MRC analyze all reports of EHR
quality review results.

Concur

Target date for completion: June 1, 2014

Facility response: The Medical Record Committee has revised their charter to include
additional members including Chief of Medicine, Chief of Surgery, Social Work
Executive, Chief of Behavioral Health, Chief of Dental, MDS Coordinator, ACOS of
Primary Care, and Rehabilitation. Reviews are defined including population size using
criteria as outlined in Handbook 1907.01 Health Information Management and Health
Records. A schedule for reporting is included in the charter and is reviewed annually.
The charter has been approved and implemented. Analysis of reviews will begin at the
January 2014 MRC meeting.

Recommendation 3. We recommended that processes be strengthened to ensure that
a member from Surgery Service attends Ancillary Testing Committee meetings, that a
clinical representative from Anesthesia Service is added as an Ancillary Testing
Committee member, and that the blood/transfusions usage review process includes the
results of peer reviews when transfusions did not meet criteria.

Concur

Target date for completion: August 1, 2014



VA OIG Office of Healthcare Inspections                                                         22
                            CAP Review of the Oscar G. Johnson VA Medical Center, Iron Mountain, MI


Facility response: Ancillary Services Liaison Committee charter will be updated to
include the Chief of Medicine, Chief of Surgery, and Anesthesia as committee
members. The Chief of Surgery and CRNA have been educated as to their
membership on this committee and required attendance. Blood or blood products are a
standing agenda item of this committee. Any transfusion not meeting criteria will be
included in the facility protected peer review process.

Recommendation 4. We recommended that nursing managers monitor the staffing
methodology that was implemented in June 2013.

Concur

Target date for completion: June 20, 2014

Facility response: The facility completed two nurse staffing methodology reports. The
first report was dated October 31, 2011. However, the report was not signed by the
staffing methodology panel members, the Associate Director, Nursing and Patient Care
Services, and the Director. Suggested process improvement strategies in this
document were implemented on the units.

The second report was dated October 1, 2012 and was sent back to the staffing
methodology panel for further clarification and information by the Associate Director of
Nursing and Patient Care Services.           It was received and reviewed prior to
June 20, 2013; however, it was an oversight that signatures were required and were not
obtained until June 2013.

The unit level staffing panel is currently in the process of completing the most recent
report to present to the facility expert panel. The next report will be signed no later than
June 2014. We are in full compliance with the Directive as of June 20, 2013.

Recommendation 5. We recommended that processes be strengthened to ensure that
acute care staff provide and document pressure ulcer education for patients with
pressure ulcers and/or their caregivers and that compliance be monitored.

Concur

Target date for completion: June 1, 2014

Facility response: Wound care education booklets have been purchased and are
utilized for patient and caregiver education. All nursing staff has received education
regarding these booklets. The providers were also educated regarding the need for
patient and caregiver education at the November 1, 2013 provider meeting. Education
is provided to patients and their family during their hospitalization. Pressure ulcer
discharge instructions have also been added to the unit clerk’s discharge checklist as
an additional staff reminder to provide this education upon discharge. Documentation of
wound care education completion is being monitored by the Nurse Manager (NM) and
will be added to the quarterly pressure ulcer report to Quality Board. In addition, the
data is aggregated monthly by the NM and is reviewed monthly by Nursing Leadership.


VA OIG Office of Healthcare Inspections                                                         23
                            CAP Review of the Oscar G. Johnson VA Medical Center, Iron Mountain, MI


Recommendation 6. We recommended that the facility establish staff pressure ulcer
education requirements and that compliance be monitored.

Concur

Target date for completion: July 1, 2014

Facility response: Pressure ulcer education was added to Medical Center Memorandum
118-03 (Pressure Ulcer Policy) on November 18, 2013. Our TMS (Talent Management
System) assigns the topic to required staff and reports are tracked to show compliance
with the education requirement. Compliance with staff pressure ulcer education is
monitored by Nursing Leadership and will be reported quarterly to the Quality Board.

Recommendation 7. We recommended that processes be strengthened to ensure that
staff provide timely restorative nursing services to residents who are candidates for
those services and that compliance be monitored.

Concur

Target date for completion: July 1, 2014

Facility response: In November 2014, an assessment was conducted of all long term
care residents to determine which veterans were in need of restorative care. All
veterans requiring restorative care are currently receiving these services. An RN on the
CLC has completed restorative education and will sit for the next certification exam in
2014. The Interdisciplinary Team has weekly discussions to review the status of
veterans who are receiving restorative care as well as identify additional veterans for
restorative care services. Reports on residents reviewed for restorative services will be
presented quarterly to the CLC Leadership Committee.

Recommendation 8. We recommended that processes be strengthened to ensure that
staff document resident progress towards restorative nursing goals, modify interventions
as needed, and document the modifications and that compliance be monitored.

Concur

Target date for completion: July 1, 2014

Facility response: All veterans receiving restorative care have goals identified. Progress
toward goals, interventions, and modifications to goals are documented by the
Restorative Care Team. The CLC Nurse Manager and MDS Coordinator will monitor
report compliance to the CLC Leadership Committee to assure progress towards
restorative goals and intervention modification is documented.




VA OIG Office of Healthcare Inspections                                                         24
                            CAP Review of the Oscar G. Johnson VA Medical Center, Iron Mountain, MI
                                                                                       Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  LaNora Hernandez, RN, MSN-ED, Team Leader
Contributors            Debra Boyd-Seale, RN, PhD
                        Wachita Haywood, RN
                        Laura Spottiswood, RN, MPH
                        Roberta Thompson, LCSW
                        John Brooks, Office of Investigations
Other                   Judy Brown
Contributors            Elizabeth Bullock
                        Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Sheila Cooley, GNP, MSN
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Jeff Joppie, BS
                        Victor Rhee, MHS
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                         25
                            CAP Review of the Oscar G. Johnson VA Medical Center, Iron Mountain, MI
                                                                                       Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Director, VA Great Lakes Health Care System (10N12)
Director, Oscar G. Johnson VA Medical Center (585/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Tammy Baldwin, Ron Johnson, Carl Levin, Debbie Stabenow
U.S. House of Representatives: Dan Benishek, Sean P. Duffy, Reid Ribble


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                         26
                                   CAP Review of the Oscar G. Johnson VA Medical Center, Iron Mountain, MI
                                                                                              Appendix G

                                                  Endnotes

1
    References used for this topic included:
	 VHA Directive 2009-043, Quality Management System, September 11, 2009.
	 VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.
	 VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.
	 VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.
	 VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation
    Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, October 15, 2012.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
    Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
2
    References used for this topic included:
	 VHA Directive 1105.01, Management of Radioactive Materials, October 7, 2009.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Handbook 1105.04, Fluoroscopy Safety, July 6, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
    September 11, 2008.
	 VA Radiology, “Online Guide,” http://vaww1.va.gov/RADIOLOGY/OnLine_Guide.asp, updated
    October 4, 2011.
	 VA National Center for Patient Safety, “Privacy Curtains and Privacy Curtain Support Structures (e.g., Track and
    Track Supports) in Locked Mental Health Units,” Patient Safety Alert 07-04, February 16, 2007.
	 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04, January 17, 2013.
	 VA National Center for Patient Safety, Mental Health Environment of Care Checklist (MHEOCC),
    April 11, 2013.
	 Deputy Under Secretary for Health for Operations and Management, “Mitigation of Items Identified on the
    Environment of Care Checklist,” November 21, 2008.
	 Deputy Under Secretary for Health for Operations and Management, “Change in Frequency of Review Using the
    Mental Health Environment of Care Checklist,” April 14, 2010.
	 Deputy Under Secretary for Health for Operations and Management, “Guidance on Locking Patient Rooms on
    Inpatient Mental Health Units Treating Suicidal Patients,” October 29, 2010.
	 Various requirements of The Joint Commission, the Occupational Safety and Health Administration, the National
   Fire Protection Association, the Health Insurance Portability and Accountability Act, the American College of
   Radiology Practice Guidelines and Technical Standards, Underwriters Laboratories.
3
  References used for this topic included:
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Handbook 1907.01.
	 Manufacturer’s instructions for Cipro® and Levaquin®.
	 Various requirements of The Joint Commission.
4
  References used for this topic included:
	 VHA Handbook 1120.04, Veterans Health Education and Information Core Program Requirements,
   July 29, 2009.
	 VHA Handbook 1907.01.
	 The Joint Commission, Comprehensive Accreditation Manual for Hospitals, July 2013.
5
  The references used for this topic were:
	 VHA Directive 2010-034, Staffing Methodology for VHA Nursing Personnel, July 19, 2010.
	 VHA “Staffing Methodology for Nursing Personnel,” August 30, 2011.



VA OIG Office of Healthcare Inspections                                                                            27
                                   CAP Review of the Oscar G. Johnson VA Medical Center, Iron Mountain, MI



6
    References used for this topic included:
	 VHA Handbook 1180.02, Prevention of Pressure Ulcers, July 1, 2011 (corrected copy).
	 Various requirements of The Joint Commission.
	 Agency for Healthcare Research and Quality Guidelines.
	 National Pressure Ulcer Advisory Panel Guidelines.
	 The New York State Department of Health, et al., Gold STAMP Program Pressure Ulcer Resource Guide,
   November 2012.
7
  References used for this topic included:
	 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
	 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
   (MDS), January 4, 2013.
	 Centers for Medicare and Medicaid Services, Long-Term Care Facility Resident Assessment Instrument User’s
   Manual, Version 3.0, May 2013.
	 VHA Manual M-2, Part VIII, Chapter 1, Physical Medicine and Rehabilitation Service, October 7, 1992.
	 Various requirements of The Joint Commission.




VA OIG Office of Healthcare Inspections                                                                    28
